   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Office of Audit Services
                                                                       Region I
                                                                       John F. Kennedy Federal Building
                                                                       Room 2425
                                                                       Boston, MA 02203
                                                                       (617) 565-2684
February 18, 2011

Report Number: A-01-10-00004

JudyAnn Bigby, MD
Secretary
Executive Office of Health and Human Services
One Ashburton Place
Boston, Massachusetts 02108

Dear Dr. Bigby:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Hospice Payments Made by
Massachusetts for State Fiscal Years 2007 and 2008. We will forward a copy of this report to
the HHS action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through email at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-10-00004 in all correspondence.

                                             Sincerely,



                                             /Michael J. Armstrong/
                                             Regional Inspector General
                                               for Audit Services



Enclosure
Page 2 – Dr. JudyAnn Bigby


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




 REVIEW OF MEDICAID HOSPICE
     PAYMENTS MADE BY
  MASSACHUSETTS FOR STATE
 FISCAL YEARS 2007 AND 2008




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-01-10-00004
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid
(the State agency) is responsible for administering MassHealth, the Massachusetts Medicaid
program, in compliance with Federal and State statutes and administrative policies. State
agencies have the option of offering hospice care as a benefit to eligible Medicaid members.

A hospice is a public agency, private organization, or a subdivision of either that is primarily
engaged in providing care to terminally ill individuals. When hospice care is furnished to a
beneficiary residing in a nursing facility, the hospice and nursing facility enter into a written
agreement under which the hospice takes full responsibility for the professional management of
the beneficiary’s hospice services and the nursing facility agrees to provide room and board.

The State agency reimburses hospices at 95 percent of the room and board per diem rate that the
State agency would have paid to nursing facilities for beneficiaries not receiving hospice care.
Federal regulations require the State agency to use certain additional financial resources that
beneficiaries have to reduce Medicaid payments to hospices.

The State agency made hospice payments totaling $193,433,284 for 100,993 claims during State
fiscal years 2007 and 2008 (July 1, 2006, through June 30, 2008). We limited our review to
5,304 monthly hospice claims totaling $21,948,950 that we identified as having a high risk of
payment error during State FYs 2007 and 2008.

OBJECTIVE

Our objective was to determine whether the State agency made Medicaid payments to
Massachusetts hospices in accordance with Federal and State requirements.

SUMMARY OF FINDING

The State agency did not always make Medicaid payments for hospice services in accordance
with Federal and State requirements. Specifically, the State agency did not use the correct per
diem rate, make the appropriate payment reduction, or reduce Medicaid payments to hospices by
the amount of beneficiaries’ financial contributions for 2,056 of the 5,304 claims we reviewed.
As a result, the State agency’s Federal claim was overstated by a total of $1,652,868 ($826,434
Federal share).

The overpayments occurred because the State agency’s claims processing system was not
designed to ensure that the appropriate per diem rate, payment reduction, and beneficiary
financial contribution were used to calculate the correct claim payment amount.




                                                 i
RECOMMENDATIONS

We recommend that the State agency:

   •   refund $826,434 to the Federal Government and

   •   implement internal controls, such as a computer edit, to ensure that payments for hospice
       claims are based on the correct per diem rate, payment reduction, and beneficiary
       financial contribution.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                         Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Hospice Care ............................................................................................1
              Nursing Facilities’ Role in Hospice .........................................................1
              Hospice Billing ........................................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................3

FINDINGS AND RECOMMENDATIONS ................................................................3

          PROGRAM REQUIREMENTS ..........................................................................4
              Per Diem Rates .......................................................................................4
              Payment Reduction ..................................................................................4
              Beneficiary Contributions .......................................................................4

          INCORRECT PAYMENT CALCULATION .....................................................4
               Incorrect Per Diem Used .........................................................................4
               Payment Reduction Not Made .................................................................4
               Payment Not Reduced By Beneficiary Contributions ............................4

          AMOUNT OWED TO FEDERAL GOVERNMENT.........................................5

          CAUSE OF UNREPORTED OVERPAYMENTS .............................................5

          RECOMMENDATIONS .....................................................................................5

          STATE AGENCY COMMENTS ........................................................................5

APPENDIX

          STATE AGENCY COMMENTS




                                                                    iii
                                       INTRODUCTION

BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

The Massachusetts Executive Office of Health and Human Services, Office of Medicaid (the
State agency) is responsible for administering MassHealth, the Massachusetts Medicaid program.

Hospice Care

State agencies have the option of offering hospice care as a benefit to eligible Medicaid
members. A hospice is a public agency, private organization, or a subdivision of either that is
primarily engaged in providing palliation and management of terminal illnesses and related
conditions. Medicaid payments for hospice care are made at one of four prospective rates for
routine home care, continuous routine home care, inpatient respite care, or general inpatient care.
In addition, hospices can also receive a partial payment for the room and board of hospice
patients residing in nursing facilities.

Nursing Facilities’ Role in Hospice

Hospices and nursing facilities enter into written agreements under which the hospice takes full
responsibility for the professional management of a beneficiary’s hospice services and the
nursing facility agrees to provide room and board. Room and board includes the provision of a
room and meals as well as activities such as the administration of medication, maintaining the
cleanliness of the beneficiary’s room, and supervision and assistance in the use of durable
medical equipment. The nursing facility subsequently bills the hospice for the room and board
provided to a beneficiary receiving hospice care.

Title 114.3 Code of Massachusetts Regulations (CMR), Chapter 43 provides hospices payments
equal to 95 percent of the room and board per diem rate that it would have paid to nursing
facilities for beneficiaries not receiving hospice care. Furthermore, the Commonwealth of
Massachusetts Division of Medical Assistance Nursing Facility Manual (Manual) §456.420
provides that the State agency will pay for nursing facility services based on per diem rates. The
State agency reviews and assigns per diem rates based on beneficiary questionnaires completed
by nursing homes. In completing the questionnaires, nursing homes use information from
beneficiaries’ medical records including physicians’ orders, nursing progress notes, and other
pertinent documentation. The State agency assigns scores for the amount of nursing care needed
for factors such as dispensing medications, dressing, and assisting with mobility and eating. The

                                                 1
questionnaires are completed for each beneficiary quarterly, and the per diem rates are adjusted
as necessary.

Hospice Billing

The State agency, pursuant to Federal requirements, must use certain additional financial
resources that beneficiaries have to reduce Medicaid payments to hospices. These resources
include Social Security and health and casualty insurance payments. When the State agency uses
an incorrect room and board per diem rate or does not reduce the Medicaid payment to a hospice
by the amount of the beneficiary’s contribution, the hospice could receive overpayments. The
hospice must return the overpayments to the State Medicaid program, which in turn must refund
the Federal share to CMS on its’ Quarterly Statement of Expenditures for the Medical Assistance
Program (Form CMS-64).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency made Medicaid payments to
Massachusetts hospices in accordance with Federal and State requirements.

Scope

We limited our review to Medicaid hospice paid claims that were subject to the State agency’s
payment requirements. The State agency made hospice payments totaling $193,433,284 for
100,993 claims submitted by 49 hospices during State fiscal years (FYs) 2007 and 2008 (July 1,
2006, through June 30, 2008). We limited our review to 5,304 monthly hospice claims totaling
$21,948,950 that we identified as having a high risk of payment error during State FYs 2007 and
2008. Specifically, we limited our review to hospice claims which appeared not to have been
reduced by beneficiaries’ financial contributions.

In performing our review, we established reasonable assurance that the claims data was accurate.
We did not, however, assess the completeness of the Massachusetts paid claims file from which
we obtained the data. We limited our review of internal controls to obtain an understanding of
the State agency’s procedures for billing and refunding overpayments of nursing home room and
board services provided to hospice beneficiaries.

We performed fieldwork in October 2009 through October 2010 at hospices located in
Charlestown, Danvers, Lawrence, Malden, Waltham, and Worcester, Massachusetts; the State
agency in Boston, Massachusetts; and the Centers for Medicare & Medicaid Services Regional
Office in Boston, Massachusetts.




                                                2
Methodology

To accomplish our objective, we:

   •   reviewed Federal and State hospice and nursing home requirements;

   •   held discussions with State agency officials to gain an understanding of the hospice
       program and the State agency’s role in making hospice payments;

   •   evaluated State agency payment files to identify 100,993 beneficiary monthly claims
       totaling $193,433,284 paid to 49 hospices for hospice services provided to Medicaid
       beneficiaries in State FYs 2007 and 2008;

   •   identified 5,304 claims totaling $21,948,950 as having a high risk of payment
       error because these claims appear not to have been reduced by beneficiaries’
       financial contributions;

   •   reviewed hospice and nursing home billing invoices, remittance advices, and State
       agency claims data to validate payment information and determine whether the sampled
       claims were correctly billed to the State agency at all 49 hospices;

   •   conducted site visits at 6 hospices; and

   •   discussed the findings with the 49 individual hospices, the State agency, and CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always make Medicaid payments for hospice services in accordance
with Federal and State requirements. Specifically, the State agency did not use the correct per
diem rate, make the appropriate payment reduction, or reduce its Medicaid payment to hospices
by the amount of beneficiaries’ financial contributions for 2,056 of the 5,304 claims we
reviewed. As a result, the State agency’s Federal claim was overstated by a total of $1,652,868
($826,434 Federal share).

The overpayments occurred because the State agency’s claims processing system was not
designed to ensure that the appropriate per diem rate, payment reduction, and beneficiary
financial contribution were used to calculate the correct claim payment amount.




                                                  3
PROGRAM REQUIREMENTS

Per Diem Rates

The Manual establishes the requirements for nursing facility services under MassHealth. Section
456.420 of the Manual provides that the State agency will pay for nursing facility services based
on per diem rates that correspond to the nursing care needs of members of the facility. To
determine the per diem for each member’s nursing care needs, a nursing facility must complete a
questionnaire when the beneficiary elects hospice care and quarterly thereafter.

Payment Reduction

Title 114.3 CMR 43.04(3)(b) states that the hospice per diem rate shall equal 95 percent of the
rate that would have been paid by the State agency to a nursing facility if the beneficiary had not
been receiving hospice care.

Beneficiary Contributions

Pursuant to 42 CFR § 435, the State agency must reduce its payment to an institution for services
provided to a Medicaid-eligible individual by the amount that remains after adjusting the
individual’s total income for a personal needs allowance and other considerations that the
regulation specifies.

INCORRECT PAYMENT CALCULATION

The State agency did not always use the correct per diem rate, make appropriate payment
reductions, or reduce Medicaid payments to hospices by the amount of beneficiaries’ financial
contributions. Specifically:

   •   Incorrect Per Diem Used: The State agency did not always use the correct per diem
       rate when making payments for hospice claims. Instead, the State agency made
       payments to hospices based on a higher rate submitted by hospice providers rather than
       the current rate established by the State agency.

   •   Payment Reduction Not Made: The State agency did not always reduce the payment
       for hospice room and board claims to 95 percent of the per diem rate. Instead, the State
       agency paid 100 percent of the per diem rate to hospice providers.

   •   Payments Not Reduced By Beneficiary Contributions: The State agency did not
       always reduce payments for hospice services by the amount of beneficiaries’ financial
       contributions. Instead, the State agency made payments to hospice providers at the
       full amount.




                                                 4
AMOUNT OWED TO FEDERAL GOVERNMENT

Due to incorrect payment calculations, the State agency’s Federal claim for Medicaid payments
made to 49 hospices for the period July 1, 2006, through June 30, 2008, was overstated by a total
of $1,652,868 ($826,434 Federal share).

CAUSE OF UNREPORTED OVERPAYMENTS

The overpayments occurred because the State agency’s claims processing system was not
designed to ensure that the appropriate per diem rate, payment reduction, and beneficiary
financial contribution were used to calculate the correct claim payment amount.

RECOMMENDATIONS

We recommend that the State Agency:

   •   refund $826,434 to the Federal Government and

   •   implement internal controls, such as a computer edit, to ensure that payments for hospice
       claims are based on the correct per diem rate, payment reduction, and beneficiary
       financial contribution.

STATE AGENCY COMMENTS

In its written comments on our draft report, the State agency concurred with our findings and
recommendations. The State agency’s comments are included in their entirety as the Appendix.




                                                5
APPENDIX
                                    APPENDIX: STATE AGENCY COMMENTS
                                                                                                                 Page 1 of 2
                                    The Commonwealth of Massachusetts                                    MassHeafth
                                Executive Office of Healt h and Human Services
                                               Office of Medicaid
                                             One Ashburton Place
 DEVA L L. PATRICK                            B oston, MA 02108
      Go\'ernor

TIMOTHY P. MURRAY
 Lieutenan t Governor

JUDYANN BIGBY, M.D .
      Secretary


                   February 8, 2011

                   Michael J . Armstrong
                   Regional Inspector General , Audit Services
                   HHS/OIG/OAS
                   Region I
                   JFK Federal Building
                   Boston , MA 02203

                    RE: Audit Report No: A-01-10-00004

                   Dear Mr. Armstrong ,

                   Thank you for the opportunity to review and comment on Draft Audit Report No.: A-01-1 0- 00004
                   Review of Medicaid Hospice Payments made by Massachusetts for State Fiscal Years 2007 and 2008.

                   The Office of the Inspector General (OIG), Executive Office of Health and Human Services (EHS) and
                   the MassHealth Provider Compliance Unit (PCU) have worked cooperatively for the last four years
                   advancing our mutual goals and efforts to identify and prevent fraud , waste and abuse as well as
                   recover overpayments . This hospice engagement is a good example of the concept and benefits of
                   partnership audits .

                   Subsequent to OIGs November 18, 2009 engagement letter, the PCU met with OIG auditors during
                   December, 2009 and January, 2010 to discuss the PCU hospice room and board recovery project
                   initiated in October, 2009. At the initial meeting, OIG indicated that they were looking at hospice room
                   and board claims where the PPA may not have been deducted from on the MassHealth claim , or when
                   an incorrect PPA was deducted . Again , the PCU was already engaged in a recovery project for
                   identified overpayments at 63 hospice providers for room and board claims . In addition to the PPA
                   issue , other pricing components were identified that could result in potential overpayments to hospice
                   providers . At three meetings with OIG , PCU described the pricing methodology applicable to room and
                   board claims as well as two additional issues which would merit review during any hospice audit
                   conducted by OIG or in future PCU projects. First, a hospice provider should only be billing a per diem
                   of 95% of the nursing facility rate; and , second , the nursing facility rate should be correct as well as the
                   level of care for the member should also be correct.

                   Finally, PCU shared thei r extensive database with OIG resulting from a well-defined algorithm for
                   hospice room and board claims with dates of service from July 1, 2005 through April 30, 2009.

                   Our responses to the report's specific recommendations are as follows:

                   Recomm endation 1): Refu nd $826,434 Federal share to the federal government.

                   Response:
                         Upon receipt and review of the cla ims detail from OIG , MassHealth will pursue overpayments
                         from the identified providers consistent with MassHealth regulations at 130 CMR 450.437, and
                         will refund the federal share in accordance with Section 6506 of the Affordable Care Act and as
                         described in State Medicaid Director letter #10-01 4, dated July 13, 2010.
                                                                                          Page 2 of 2
Recommendation 2): Implement internal controls, such as a computer edit, to ensure that
payments for hospice claims are based on the correct per diem , payment reduction and
beneficiary final contribution amounts.

Response:

   •    In May 2009, MassHealth implemented a computer edit for the beneficiary's contribution
        amount for hospice claims. MassHealth refers to the beneficiary contribution amount as the
        patient-paid amount (PPA). See, 130 CMR 456.423. When "a hospice claim is processed for
        payment, MMIS searches its records for a PPA, and , if a PPA is found , MMIS deducts that
        amount from the hospice paid claim. If a hospice provider enters an incorrect PPA on the claim
        or does not include a PPA on the claim , MMIS will search for a PPA on every hospice claim and
        make the appropriate adjustment to the paid claim.
   •    MassHealth is working on a claims processing computer edit that will ensure all hospice claims
        are paid at the correct per diem amount and calcu!ate 95% of the per diem amount. This
        systems edit is currently scheduled to be implemented in July, 2011 .
   •    MassHealth's Provider Compliance Unit (PCU) conducts a post-payment review of hospice paid
        claims to ensure that the correct per diem amount was paid and the 95% calculation of the per
        diem amount was applied to the claim. In October 2009 the PCU sent initial notices of
        overpayments to 63 hospices for room and board claims with dates of service from July 1, 2004
        through April 30 , 2009. Subsequently, audit notices were sent to 75 hospices for room and
        board claims in October 2010 , excluding those reviewed by the Office of Inspector General and
        by PCU in the previous recovery project. This audit covered dates of service January 1, 2005
        through December 31 , 2009. To date, approximately $2,615,000 .00 has been recovered . For
        identified overpayments , MassHealth recovers the overpayments from the hospice providers
        and refunds the Federal share to the federal government.
    •   MassHealth conducted training on MassHealth billing procedures for hospice providers in 2009;
        this training reinforced the provider's responsibility to bill the correct per diem rate, the 95%
        calculation , and the PPA. Along with the trainings, MassHealth revised the billing guidelines for
         hospice providers . MassHealth created hospice billing tips and job aids which contained
         detailed billing instructions to further address these hospice billing procedures . The billing
         guidelines, hospice tips and job aids are all posted on the MassHealth website.


         u , again , for the opportunity to respond to the draft report.




                                              2

